APPENDIX (VEENA SHARMA V. SANTANDER BANK)

1.
2.
3.
4.

Statue of Limitations....................................................
Sharma v. County Mortgage........................................
Judgement of U.S. Court of Massachusetts...............
Judgement of U.S. Court of Appeals for First Circuit

5
)*1>

)3

959. Ten-year Statute of Limitations | JM | Department of Justice

5/26/2020

m An official website of the United States government
Here’s how you know
lit

K I>t, i>

l M i»'M

*

i

h *•

SrfeMOetf tldrtfeAt from the U.S. Department of Justice website. The information here may be
okMe# ^d^ffks may no longer function. Please contact webmaster@usdoj.gov if you have any
questions about the archive site.

f

959. TEN-YEAR STATUTE OF LIMITATIONS
18 U.S.C. § 3293(2) provides for a ten-year statute of limitations for a violation of. or a conspiracy to violate, the mail or
wire fraud statutes, if the offense affects a financial institution. Moreover, the ten-year statute applies to offenses
committed prior to enactment of FIRREA, provided the previously applicable statute of limitations had not run as of the
date of FIRREA's enactment. Pub.L. No. 101-73, Title IX, § 961(l)(3), 103 Stat. 501.

[cited in JM 9-43.1001
< 958. Fraud Affecting a Financial Institution

up.

960. More Severe Sanctions. Including Forfeiture >
Updated January 21, 2020

r£N
riMl

.>

fi

TNj jC p $ Q.T

k

‘T ft'TU l3

of

C-IhuTAT/CKS

i^onruTioo^

}&K/C//VL

fiioW]
c pJT

,JVsi i!

€C

%
____.~t aca

..mot*

1/1

19-P-1028
COMMONWEALTH OF MASSACHUSETTS APPEALS COURT

Sharma v. Cnty. Mortg., LLC.
Decided Jun 23, 2020

19-P-1028
06-23-2020

VEENA SHARMA v. COUNTY MORTGAGE, LLC.
By the Court (Rubin, Blake & Wendlandt, JJ.), Clerk
ZTIoEi nnW7nftofeCiSi0nS
^ APPea'S C0Urt P“ “its
1by 73 Mass.
App. Ct 1001 (2009), are pnn.ar.ly d,reeled to the parties and, therefore, may not folly address the facts of the
case or the panel s decstonal rationale. Moreover, such decisions are not circulated to the entire conn and
therefore, present only the views of the panel d,a. decided to ease. A sumnnny decision pursuant to ruk 1 -28
issued after Februaiy 25,2008, may be cted for its persuasive value but, because of the limitations noted
a ove, not as binding precedent. See Chace v. Curran. 71 Mass. App. Ct. 258, 260 n.4 (2008).

MEMORANDUM AND ORDER PURSUANT TO RULE 1:28
In December 2018, the pro se plaintiff brought this action for damages against the defendant, Stuart Cole
alleged to be to owner of County Mortgage LLC. He brief complaint states tot to defendant "ftaudulmly
secretly and mtenhonally napped [the plain*] in a [*] unscrupulously, deceitfol contract, called predatory '
ending. The complaint alleges, inter alia, that the defendant "secretly inflated the loan amount of
approximately $72,000 re $150,000," "secretly added" - apparently as collateral - a valuable rental
M^TT r ad<il,,0n !” Pla“ff5 reSid“Ce' “d SUbmi,ted "fabrica,'d" “d "altered" documents to to
Massachusetts Commission Against Discrimination.
On March 18,2019, the plaintiff filed "an emergency motion" to stop a foreclosure of her residence scheduled
for ■ . March 20,2019, at 10 AM. A letter attached stated that the plaintiff was asking the court "to
stop/postpone foreclosure until further directions from the honorable Superior Court."
On that same date, the motion judge issued a "mem
orandum and order on plaintiffs' motion for preliminary
injunction."
, . . 'ndmg that the Plaintlffhad not demonstrated any likelihood of success on the merits, the motion
judge denied the emergency motion, which he characterized as one for a preliminary injunction.
In that same memorandum and order, the judge made reference to a number of facts not
alleged in the
comp1 aint, referring to two earlier court cases filed by the plaintiffs husband and apparent coboirower Tej
, a™a, ' JUdf S3ld tHat thC Plamtiff "Sh°Uld h3Ve been included"in the Prior cases, that the plaintiff and
her husband had boirowed $150,000, and that the amount was borrowed at a fixed interest rate of 14 9 percent
The judge concluded that was not a sufficiently high interest rate to amount to predatory lending, and that "the'

Id

1

-■>

coma oe granted. See Mass. R. *3 Civ. P. 12 (b) (6), 365 Mass. 754 (1974). The plaintiff has appealed”^ ^
The appellee's brief in this case was

fiIed by Staart Cde. wh° asserts that he was named as appellee, but that the only
defendant, and only proper appellee, 1, Coum, Mortgage, FLC. For reasons .ha. bay, not bee. explained to « the
caption °f Ide case in die Superior Court was Veena Sharma XS- Stuart Cole as owner of Counly Mortgage LLC. We
note that the civil cover sheet filed with the complaint listed Stuart Col eas a
defendant and listed County Mortgage
LLC, on the line below that, apparently also as

was docketed in the case below with the Superior Court caption In
any event, we think the pro se notice of appeal in this case can be read and understood to amount to
an appeal against
the defend.., County Mortgage, LLC. W. do no, know wby rhe defend,,, assert,
he,,.ne was nanwdaa.ppe,,«
"
‘'7“"“ k
^
« dm propriety of adteslng irt
enls. The defendsuits brief notes correctly that myriad Sets asserted in the plaintiffs appellate brief
and documents to
which it refers are not contained in the record below. We do not rely
on any of these factual assertions or documents in
reaching our decision.

.

As to the emergency motion, regardless of whether what was
sought was properly described as "preliminary
injunctive relief' or not,2 we see no abuse of discretion
. .. ^
.
or other error of law in the judge's denial of the motion
m light of the plaintiffs failure to show entitlement to the injunctive relief she sought. *4
2 The plaintiff asserts that this is a mischaracterization as the lawsuit itself was one for money damages and not one to
prevent foreclosure. As descnbed in the text, the characterization is iirelevant to our decision.

The judge s sua sponte dismissal for failure to state a claim, however, stands on less solid ground The
thfbasis o^ Pd°m^t0 n° PUbIiShCd MaSSaChuSCttS aPPellate case Pennitttag dismissal of a complaint on
Th t
ww
1 T SP°nte m°tl0n t0 diSmiSS Undef mle 12 (b) (6)'1116 one Published case he does cite
_ue v. -a_er, 281 F.3d 314,319 (1st Cir. 2002), states that, although "in limited circumstances sua sponte
dismissals of compkints under Rule 12(b)(6)... are appropriate ... such dismissals are erroneous unless the
parties have been afforded notice and an opportunity to amend the complaint.
or otherwise respond." Id.,
quoting Futera Dev, of P.R Jnc. v Estado Libre AsoriaHn HpPr i44F.3d7 13-14 (1st Cir 19981 Tn Chum
States Court of APPea,s for ,„e Krst Circuit wen, on t0 5ay ^ a
spo^*

5

wi out prior notice, like the one in this case, might be affirmed but only "if it is crystal clear that the plaintiff
cannot preva, and that amending the complaint will be futile." Chute, 28.1 F.3d at 319, quoting GonzaLv. United^, 257 F.3d 31, 37 (1st Cir. 2001). In order to obtain affirmance in such^T^
umstances,
e irst Circuit the party defending the dismissal must show that 'the allegations contained in the
complaint, taken in the light most favorable to the plaintiff, *5
are patently meritless and beyond all hope of
redemption.’" Id., quoting Gonzalez-GotwaW supra.
This the defendant does not even attempt here. Moreover, the dismissal by the motion judge was based not

^ 2 ftim b , “’"Tb "If1 °f C°"Se m“St bS ““ “

&r PUT0S“ °f

on

f' «X T T
y
Up°”
fac,s recited in the
Vision, which may or may not have
taken fiom fmdmgs made m other cases relating to the loan at issue in this ease. The order dismissing the
omplaint in this matter was error and the judgment therefore must be reversed.3

2

Sharma v. Cnty. Mortg., LLC.

19-P-1028 (Mass. App. Ct. Jun. 23, 2020)

3 We express no opinion on the question whether the facts alleged in the complaint and the reasonable inferences that
may be drawn therefrom taken in the light most favorable to the plaintiff state a claim upon which relief may be
granted.
So ordered

By the Court (Rubin, Blake & Wendlandt, JJ.4),
4 The panelists are listed in order of seniority.____

/s/
Clerk Entered: June 23,2020.

IU

3

oasc -L.xy-CV-

i^ibs-hds

Document 10 Filed 02/25/20 Page 1 of 11

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)

VEENA SHARMA,

)
)

Plaintiff,

)

v.

)

)
)
)

SANTANDER BANK,

Civil Action No.
19-12184-FDS

)

Defendant.

)

VEENA SHARMA,

)
)

Plaintiff,

)

v.

)

FIDELITY INVESTMENTS,

)

)
)

Civil Action No.
19-12186-FDS

)

Defendant.

)

VEENA SHARMA,

)
)

Plaintiff,

)

v.

)

)
)

ATTORNEY DOMENIC S. TERRANOVA )
et al.,
’ 7)

’ Civil Action No.
19-12220-FDS

)

Defendants.

)

memorandum and order

SAYLOR, J.
In October 2019, plaintiff Veena Sharma filed these three civil actions, all of which
related to three earlier actions in Essex Superior Court to which she was
y

'3

a party. She is

are

V.CWC ±.x»-uv-x^±tjb-hUb Document 10 Filed 02/25/20 Page 2 of 11

proceeding pro se and in forma pauperis.
As set forth below, in 2010, the Trustees of the Andover Gardens Condominium Trust
procured a judgment in Essex Superior Court against plaintiff for unpaid condominium fees.
Shortly thereafter, the Trustees commenced a second action against her for the appointment of a
receiver. In February 2011, the court appointed a receiver, and,
final account and asked to be discharged. Plaintiff (who was

on January 26,2012, he filed a

represented by counsel) and the

Trustees assented to the motion and the case was dismissed.
On November 13,2018, plaintiff commenced an action in Superior Court against the
Trustees. That action alleged that in June 2011 she had learned that the Trustees had unlawfully
withdrawn funds totaling $192,000 from her accounts at Sovereign Bank (now known as
Santander Bank) and Fidelity Investments. Applying the Massachusetts three-year tort statute of
limitations, the court dismissed the action as time-barred.
In these three federal actions, plaintiff now seeks damages based on claims that
Santander, Fidelity, the Trust, the Trust’s attorney, the receiver, and her own attorney committed
the federal crimes of bank embezzlement, mail fraud, wire fraud, and bank fraud.
Summonses have not issued pending the court’s review of the complaints. The court may
dismiss any complaint brought by a party proceeding in forma pauperis if it is malicious,
frivolous, seeks damages against a party immune from such relief, or fails to state a claim upon
which relief can be granted. See 28 U.S.C. § 1915(e)(2). In conducting its review, the court
must construe the complaint liberally because plaintiff is proceeding pro se. A federal court also
has an obligation to inquire sua sponte into its own jurisdiction. See United States

v. Univ. of

Mass., Worcester, 812 F.3d 35, 44 (1st Cir. 2016).
For the reasons stated below, it is at least doubtful that the court has subject

*r

-matter

v^aac A.15J

-uv-j.z±8tH-us Document 10 Filed 02/25/20 Page 3 of 11

jurisdiction, because the claims are “insubstantial, implausible,... [and] otherwise completely
devoid of merit.” Oneida Indian Nation ofN. Y.

v. County of Oneida, 414 U.S. 661, 666 (1974).

But because such jurisdiction appears to exist, the cases will be dismissed for fail

ure to state a

claim because they are barred by the statute of limitations and principles of claim preclusion.
I.

Factual Background
A.

Prior State Actions

On October 9, 2008, the Trustees initiated an action

against plaintiff in Essex Superior

Court seeking unpaid condominium common charges. See Trustees ofAndover Garde
ns Condo
Trust v. Sharma, 0877CV02005 (Essex Superior Ct„ Mass.) (Trustees ofAndover Gardens
Condo Trust v. Sharma /’).' On the docket, the lawsuit is characterized as one for
“Condominium Lien & Charges.” Domenic S. Terranova was the attorney for the Trustees.
Plaintiff appeared pro se. In June 2010, the Superior Court granted the Trustee

s’ motion for

summary judgment and entered judgment in its favor for $18,059 in unpaid common expenses.
On September 2,2010, the Trustees commenced a second action against plaintiff, seeking
the appointment of a receiver. See Trustees ofAndover Gardens Condo Trust v. Sharma,
1077CV01869 (Essex Superior Ct„ Mass.) (-Trustees ofAndover Gardens Condo Trust v.
Sharma IT"). Attorney Terranova again represented the Trustees. On January 19, 2011, after
plaintiff had defaulted on the complaint, attorney Peter J. Caruso entered an appearance
behalf. On February 10,2011, the court appointed Michael B.

on their

Feinman, Esq., as a receiver.

Attorney Feinman filed an Amended Final Account and Request for Dismissal

on January 26,

2012. The following day, the court allowed the motion, noting that the parties had assented to it.

ss:.roSe-counaetoL
3^

i.:±y-cv-izibt>-FDS Document 10 Filed 02/25/20 Page 4 of 11

The docket text does not provide any specifics of the amended final

account.

On November 13,2018, plaintiff, proceeding pro se, commenced an action against the
Trustees. See Sharma v. Trustees ofAndover Gardens Condo Trust, 1877CV01631 (Essex
Superior Ct, Mass.). In that complaint, plaintiff alleged that “she came to know on June 3
that Trustees of Andover Garden Condominium Trust ha[d] unlawfully managed to

,2011

withdraw

approximately $192,000 dollars from [her] accounts at Sovereign Bank [now Santander]
Fidelity Investments for [the] unpaid condominium fee of approximately $18,059.33

and

without my

permission.” Compl. ^ 2, Sharma v. Andover Gardens Condo Trust.2
On June 11,2019, the Trustees, represented by attorney Terranova, filed a motion to
dismiss. According to the docket, the Trustees argued that “part of this action alleging
conversion of the plaintiffs’ funds from Sovereign [now Santander] Bank and Fidelity
Investments as the claim for conversion is time haired under [the] statute of limitations, MGL C.
260, sections 2A and 4.” On September 20, 2019, im an
endorsed order set forth on the docket of
the case, the court granted the Trustees' motion to dismiss the complaint as time-barred.
B.

Actions Pending in this Cnnr*

1.

Sharma v. Santander Bank. C.A. No. 19-12184-FDS

The complaint in Sharma v. Santander Bank, C.A. No. 19-12184-FDS, alleges that in
2011, plaintiff discovered that all her funds in an account with Santander Bank were missing.
Santander is the only defendant. The complaint alleges that despite her several inquiries to
Santander concerning the disappearance of her funds, the bank
disclose to her what had happened to the funds in her account.

was not able or refused to
It further alleges that in 2017, she

°ne'page comPlaint in Sharma v. Andover
Gardens Condo 7™st, 1877CV01631 (Essex
J
superior Ct., Mass.), was
included
as
an
„ c , , D , e^hlblttoSantander Bank’s memorandum in support of its motion to
dismiss. See Sharma v. Santander Bank, C.A. No. 19-12184-FDS, Compl. Ex. 1, at 1.

J..i5)-uv-i^j.oo-i-us Document 10 Filed 02/25/20 Page 5 of 11

discovered that Santander had issued a check from her account in the amount of $28,069.09 to
attorney Michael Feinman, and that attorney Feinman had submitted a letter to the bank “with
Falsified information and false pretense." Compl. at 6 (as in original). The complaint alleges
that “Attorney Feinman and Santander Bank committed wire and mail fraud by intercepting
[plaintiffs] mail to obtain information on my bank accounts and identify theft.”

Id. at 7.

The complaint invokes this court’s federal-question jurisdiction. Id. at 3;; see 28 U.S.C.
§ 1331 (providing that “[t]he [federal] district courts shall have original jurisdiction of all civil
actions arising under the Constitution, laws, or treaties of the United States”). It pmports to
assert a claim under 18 U.S.C. § 656, which provides criminal penalties for theft,

embezzlement,

or misapplication of assets by a bank officer or employee, as the basis for that jurisdiction. It
seeks $10.5 million in damages.
Although a summons has not issued in the case, on November 26, 2019, counsel for
Santander appeared and filed a motion for dismiss for failure to state a claim upon which relief
can be granted. Santander argues that plaintiffs claims are time-hatred and barred by the
doctrine of claim preclusion. Plaintiff did not file an opposition to the motion to dismiss.
Sharma v. Fidelity Investments, C.A. No. 19-12186-FDS
The complaint in Sharma v. Fidelity Investments, C.A. No. 19-12186-FDS, alleges that
attorney Femman and Fidelity “conspired and committed bank fraud by getting hold of
[plaintiffs] account and conversion of [her] stocks at Fidelity Investments”

without her

knowledge or authorization. Compl. at 6. The complaint alleges that she called Fidelity in 2011
to check on the status of her stocks and was informed that she did not have any. Fidelity
allegedly represented to plaintiff tha^it did not know what happened to her stocks,

According to

the complaint, after she reported'the matter to the Andover Police Department, three detectives

I*

i:iy-cv-i^iB6-FDS Document 10 Filed 02/25/20 Page 6 of 11

worked with her on the matter for two weeks but were unable to make any progress.
The complaint further alleges that in 2017 plaintiff made a complaint against attorney
Feimnan with the Board of Bar Overseers. It alleges that, in response to her complaint, “attorney
Feinman provided 40-50 pages of document^] to me which included copies of three checks
issued by Fidelity Investments to attorney Feimnan in the amounts of approximately $166,000.”
Id. at 7. It further alleges that attorney Feinman “got this money on the basis of falsified
documents.” Id.
As m the complaint against Santander, the complaint purports to assert claims under 18
U.S.C. § 656 and invokes federal-question jurisdiction. It seeks $11 million in damages “for
participating in these federal crimes (mail, wire, and bank fraud).” Id. at 8. Fidelity is the only
defendant.
3.

Sharma v. Terranova, etal. C.A. No. 19-12220-FDS

The third action is against attorney Feinman, attorney Terranova, attorney Peter Caruso,
and the Andover Gardens Condominium Trust.3 The complaint alleges that these parties
conspired and defrauded” Fidelity and Santander to steal a total of $206,000 of plaintiff s
money from those institutions in 2011. Compl. at 6. It further alleges that the Trust and the
three defendant attorneys “intercepted [her] mail to obtain information on [her] bank

accounts,

investments, real estate including [her] primary residence and rental properties, [her] goods in
the house, and other personal information for more than a year.” Id. It further alleges that

"““I1” a8ainS, “
<"*. T!« Z was uoithe
L/, PaTy10 sue h M.G.L. ch. 182, § 1 (defining “trust” for purposes of M.G.L. ch. 182 as a trust “oneratine
cenmrJ f11 Tmment °r declaratl0n of tnist, the beneficial interest under which is divided into transferable
certificates of participation or shares ....”); M.G.L. ch. 182, § 6 (providing that a “trust” may be sueT

oase i.iy-cv-12186-FDS Document 10 Filed 02/25/20 Page 7 of 11

attorney Terranova represented the Trustees in Trustees ofAndover Gardens Condo Trust v.
Shama //withouttheir authorization. According to plaintiff, attorney Terranova “created [sic] a
counsel, attorney Peter Caruso,” to represent plaintiff, and he “abused the legal process” by
[ljmtiating a trial without probable cause,” engineering the appointment of his friend attorney
Feinman as receiver, filing motions for default, and “fabricating” court judgments Id. at 7. The
complaint alleges that all the defendants conspired to commit bank fraud, and that the Trust
“conspired m a silent way by not stopping” the three attorney defendants. Id. at 8. It concludes
that “[a] 11 four defendants conspired against [her] to commit bank fraud.” Id.
The complaint purports to assert claims under 18 U.S.C. §§ 1341, 1343, and 1344 , and
again invokes federal-question jurisdiction. See Compl. at 3. It seeks $15 million in damages
against each of the attorney defendants and $6 million in damages against the Trust.
II.

Discussion
A.

Subject-Matter Jurisdiction

Federal courts are of limited jurisdiction, “and the requirement of subject-matter
jurisdiction ‘functions as a restriction on federal power.’”Fafel v. Dipaola, 399 F.3d 403

,410

(1st Cir. 2005) (quoting Ins. Corp. ofIreland v. Compagnie des Bauxites de Guinee, 456 U.S.
694, 702 (1982)). As a general matter, federal courts may exercise jurisdiction over civil actions
arising under federal laws, see 28 U.S.C. § 1331, and over certain actions in which the parties are
of diverse citizenship and the amount in controversy exceeds $75,000, see 28 U.S.C. § 1332 4
All three complaints invoke the court’s federal-question jurisdiction.
The complaints purport to assert claims arising under various federal criminal statutes:

case i:19-cv-12186-FDS Document 10 Filed 02/25/20 Page 8 of 11

those creating the crimes of bank embezzlement, mail fraud, wire fraud, and bank fraud. Those
statutes do not, however, create a private right of action to bring a civil claim against an alleged
wrongdoer. See, e.g., Wisdom v. First Midwest Bank, ofPoplar Bluff, 165 F.3d 402, 408 (8th
Cir. 1999) (holding that no private right of action exists under 18 U.S.C. §§ 1341 or 1343); Lowe
v. Viewpoint Bank, 972 F. Supp. 2d 947, 954-55 (N.D. Tex. 2013) (same, as to 18 U.S.C. § 656);
Milgrom v. Burstein, 374 F. Supp. 2d 523, 529 (E.D. Ky. 2005) (same, as to 18 U.S.C. § 1344).
Plaintiffs attempted assertion of a civil right of action under federal criminal statutes is
so devoid of merit as to call into question the existence of federal-question jurisdiction. See
Oneida Indian Nation ofN.Y. v. County of Oneida, 414 U.S. 661, 666 (1974) (stating that
dismissal for lack of subject-matter jurisdiction based on the inadequacy of the federal claim is
appropriate where the claim is “so insubstantial, implausible, foreclosed by prior decisions of
this Court, or otherwise completely devoid of merit as not to involve a federal controversy”);
Bell v. Hood, 327 U.S. 678, 682 (1946) (holding that dismissal for lack ofjurisdiction is
appropriate if it is not colorable, that is, “immaterial and made solely for the purpose of obtaining
jurisdiction or wholly insubstantial and frivolous”); Steel Co. v. Citizens for a Better
Environment, 523 U.S. 83, 89 (1998); Merrell Dow Pharm Inc. v. Thompson, 478 U.S. 804, 817
(1986).
Unfortunately, the case law as to the “dichotomy” between lack of subject-matter
jurisdiction and failure to state a claim is often confused and inconsistent. Arbaugh v. Y&H
Corp., 546 U.S. 500, 511 (2006) (discussing how courts have been “less than meticulous” in
addressing the issue). Moreover, the court can never assume the existence of subject-matter
jurisdiction, but must make an affirmative decision as to its existence. Under the circumstances,
the Court concludes that the claims here—which, again, purport to assert civil causes of action

^ase i:iy-cv-iziab-(-us Document 10 Filed 02/25/20 Page 9 of 11

arising out of federal criminal statutes—are sufficiently colorable to confer federal-question
jurisdiction, even if only barely so. The Court will therefore address the merits of the claims.
B.

Failure to State a Claim

The asserted claims present two obvious issues: the statute of limitations and claim '
preclusion.5
1.

Statute of Limitations

Depending on how the claims are construed, they could be subject to a three, four, or sixyear period of limitations under Massachusetts law, which applies in this context. See Mass.
Gen. Laws ch. 260, §§ 2A (three-year statute of limitations for tort claims), 5A (four-year statute
of limitations for action for consumer claims under chapter 93 A), and 2 (six-year statute of
limitations for breach of contract claims). Here, by her own representations, plaintiff knew at
least seven years before filing three lawsuits that she had been harmed by the alleged
misconduct. Thus, regardless of how her claims are construed, they are time-barred.
2. Claim Preclusion
All three cases involve claims that were, or should have been, raised in Sharma v.
Trustees ofAndover Gardens Condo Trust, her earlier state court proceeding (which itself was
dismissed as time-barred). The new claims are therefore barred under principles of claim
preclusion.
The doctrine of claim preclusion, or res judicata, prohibits parties from contesting issues
that they have had a “full and fair opportunity to litigate.” Taylor v. Sturgell, 553 U.S. 880, 892

Although the statute of limitations and claim preclusion are affirmative defenses, and the Federal Rules of
Procedure do not require a plaintiff to plead facts to avoid potential affirmative defenses, a complaint can be
isrmssed for fajlure to state a claim if its allegations show that relief is barred by the defense. See Back v. Jones,
iviI

£1

v^ase x:iy-cv-izibb-hUb Document 10 Filed 02/25/20 Page 10 of 11

(2008). Claim preclusion requires proof of three elements: “(1) the earlier suit resulted in a final
judgment on the merits, (2) the causes of action asserted in the earlier and later suits

are

sufficiently identical or related, and (3) the parties in the two suits are sufficiently identical or
closely related.” Airframe Sys., Inc. v. Raytheon Co., 601 F.3d 9, 14 (1st Cir. 2010). Those three
elements are clearly satisfied here.
First, plaintiff brought an earlier suit, which was dismissed by the court and not appealed.
That dismissal constitutes a final judgment on the merits for purposes of claim preclusion. See
Airframe, 601 F.3d at 14 (citing A VXCorp. v. Cabot Corp., 424 F.3d 28, 30 (1st Cir. 2005))
(holding that dismissal for failure to state a claim is “plainly a final judgment on the merits”).
Second, plaintiffs claims all arise from the same basic allegation that the Trustees stole
money from her accounts at Santander Bank and Fidelity. Those claims either were actually
brought, or should have been brought, in the earlier action.
Third, the defendants in this suit are sufficiently identical or closely related to the
defendant named m the earlier suit such that principles of claim preclusion should apply.
Accordingly, because all three elements are satisfied, plaintiffs claims are barred by
principles of claim preclusion.
HI.

Conclusion
For the foregoing reasons:
1.

Defendant’s motion to dismiss in Sharma v. Santander Bank, C.A. No. 19-12184FDS, is GRANTED and the action is DISMISSED.

2.

Sharma v. Fidelity Investments, C.A. No. 19-12186-FDS, is DISMISSED.

3.

Sharma v. Terranova, C.A. No. 19-12220-FDS, is DISMISSED.

&

-L.j.a-cv-x/'i.oo-t-us uocument 10 Filed 02/25/20 Page 11 of 11

So Ordered.

Dated: February 25, 2020

/s/ F. Dennis Savior TV_____________
F. Dennis Saylor IV
Chief Judge, United States District Court

i

uyw,

wcue meu: uyizorzuzv

Entry ID: 6370004

United States Court of Appeals
For the First Circuit
No. 20-1317
VEENA SHARMA,
Plaintiff - Appellant,
v.
SANTANDER BANK,
Defendant - Appellee.

Before
Torruella, Lynch and Kayatta,
Circuit Judges.
JUDGMENT
Entered: September 25,2020
Pro se
dismissing her
therem, even when construed in the light most favorable to appellaS as a pro se HUgl, fa led ,„
jSto
aPPhCaWe StatU‘eS of hmitations and were tatter barred under the doctrine of res

We assume, arguendo, that de novo review applies to the dismissal. Even so after our own
HW1 rjeVlew.f appellant's submissions and the record below, we affirm the judgment of
-- ™ly 0n.Statute of Imitations grounds. Appellant's contention that a^n-year
statute of limitations applies to her claims per 18 U.S.C. §656 is unavailing Section 656 Is a
criminal provision and, before the district court and this court, appellant has failed to explain how
^°faCtl°nf°r aprivate civiI liti8ant As the district courfcorrectly
concluded, whether construed as sounding in tort, contract, or consumer pnrtectir«SdS^
aims were clearly time-barred. See Mass. Gen. Laws ch. 260, §§ 2A (three-year statute of
limitations for^claims), 5A (four-year statute of limitations fe Lon for^l^SSii
under chapter 93A), and 2 (six-year statute of limitations for breach of contract claims)- see also
v. SCAJTissue N. Am.. LLC. 794 FJdS^0^^%

L

S“e “d ' S“a >»

u/aie rueu. ua/^O/z'U^U

tntry ID: 6370004

orant Fm,f ly’f We dlscem/° error and no abuse of discretion in the district court's decision to
grant appellees motion to dismiss without first sua sponte providing appellant leave to amend her
complaint; appellant did not seek such leave, despite having been placed on notice of the purported
deficiencies m her complaint via the appellees' motion to dismiss. In any event as the claims were

fUtUe.y

baSCd °” aPPellm,'S 0Wn faCtol

—-I ltdta” Z

Accordingly, the judgment of the district court is affirmed. See 1st Cir. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk
cc:
Veena Sharma
Patrick S. Tracey

f*-

\

